No. __A___
IN THE

Supreme Court of the United States
DR. REDDY’S LABORATORIES, LTD. AND DR. REDDY’S LABORATORIES, INC.,
Petitioners,
v.
ELI LILLY & COMPANY,
Respondent.
APPLICATION FOR AN 18-DAY EXTENSION OF TIME TO FILE
A PETITION FOR WRIT OF CERTIORARI
TO THE HONORABLE JOHN G. ROBERTS, CHIEF JUSTICE OF THE UNITED
STATES AND CIRCUIT JUSTICE FOR THE FEDERAL CIRCUIT:
Under Supreme Court Rule 13.5, petitioners Dr. Reddy’s
Laboratories, Ltd. and Dr. Reddy’s Laboratories, Inc. (“Dr. Reddy’s”)
respectfully request an 18-day extension of time to file a petition for a writ
of certiorari, to and including Monday, February 24, 2020.1

1

All parties are listed in the caption. Petitioners’ parent company is Dr.
Reddy’s Laboratories, S.A. Although the court of appeals issued an
opinion addressing two companion appeals together (Fed. Cir. Nos. 182128 and 18-2126), it issued separate judgments in each in each appeal.
This application arises from No. 18-2128. In Appeal No. 18-2126, the
parties were Eli Lilly & Company, and Hospira, Inc.
1

1.

The court of appeals issued its panel opinion and judgment on

August 9, 2019 (Tab A, published 933 F.3d 1320). The full court denied
Dr. Reddy’s timely-filed petition for rehearing on November 8, 2019 (Tab
B). This Court’s jurisdiction would be invoked under 28 U.S.C. § 1254.
2.

Without an extension, the deadline to file the petition for

certiorari would be February 6, 2020. This application is filed more than
10 days before that date.
3.

This case presents an important question concerning the scope

of patent law’s doctrine of equivalents. “The doctrine of equivalents is
premised on language’s inability to capture the essence of innovation,”
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 734
(2002), and allows patent holders to assert claims for infringement for
products and processes that are not within the literal scope of the patent’s
claims. The claims provide notice to the public of what the patented
invention is, and thus of what conduct will constitute infringement.
Nautilus, Inc. v. Biosig Instruments, Inc., 134 S. Ct. 2120, 2129-30 (2014).
Under the doctrine of equivalents, patentees may allege infringement by
products or processes that are “equivalent” or “insubstantially different”
from what is literally claimed. Warner-Jenkinson Co. v. Hilton Davis

2

Chem. Co., 520 U.S. 17, 39-40 (1997). The doctrine of equivalents thus
“renders the scope of patents less certain,” Festo Corp. v. Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722, 732 (2002), and “when applied broadly,
conflicts with the definitional and public-notice functions” of patent claims.
Warner-Jenkinson, 520 U.S. at 29.
4.

This Court’s precedent emphasizes that the doctrine of

equivalents is part of patent law, but must be carefully cabined. Even
with the doctrine of equivalents, “[a] patent holder should know what he
owns, and the public should know what he does not.” Festo, 535 U.S. at
731. Prosecution history estoppel is an important tool for the public to
know what a patent holder does not own. For more than 100 years,
productive companies considering their competitors’ intellectual property
have been entitled to assume that when a patent applicant has changed its
claims in prosecution from broader to narrower, the scope between the
original and narrowed claims is surrendered—i.e., the patentee would be
estopped in litigation from contending that the surrendered territory is
covered by the patent literally or under the doctrine of equivalents. See,
e.g., Shepard v. Carrigan, 116 U.S. 593, 598 (1886); Exhibit Supply Co. v.
Ace Patents Corp., 315 U.S. 126, 136 (1942).

3

5.

In 2002, in Festo, this Court announced three exceptions to the

doctrine of prosecution history estoppel. Prosecution history estoppel does
not apply where the patentee “could not reasonably be expected to have
drafted a claim that would have literally encompassed the alleged
equivalent.” 535 U.S. at 740-41. One such exceptional circumstance is
where “the rationale underlying the amendment [to the patent claims]
may bear no more than a tangential relation to the equivalent in
question.” Id.
6.

Since this Court announced the “tangential” exception, the

Federal Circuit has taken two diametrically opposite approaches to what
that exception means.
6a.

Under one approach, “tangential” refers to when a patent

applicant adds multiple limitations to a claim at the same time, not all of
which relate to an examiner’s rejection. Equivalents to the unrelated
limitations may fall within the tangential exception. See, e.g., Ajinomoto v.
ITC, 932 F.3d 1342, 1363 (Fed. Cir. 2019) (Dyk, J., dissenting); Honeywell
Int’l Inc. v. Hamilton Sundstrand Corp., 523 F.3d 1304, 1316 (Fed. Cir.
2008); Biagro W. Sales, Inc. v. Grow More Inc., 423 F.3d 1296, 1306 (Fed.
Cir. 2005). That approach respects the public-notice function of a patent’s

4

claims and prosecution history, and it avoids the obvious gamesmanship
that would result if patent holders could invoke the “tangential” exception
merely by arguing that, in retrospect, they narrowed their claims too much
in response to an examiner’s rejection. See, e.g., Int’l Rectifier Corp. v.
IXYS Corp., 515 F.3d 1353, 1359 (Fed. Cir. 2008) (the “decision to claim …
using a limiting term … whether or not required to overcome the…
rejection, cannot be described as only tangential.”); Integrated Tech. Corp.
v. Rudolph Techs., Inc., 734 F.3d 1352, 1358 (Fed. Cir. 2013).
6b.

Under the other approach, panels of the Federal Circuit accept

precisely that sort of gamesmanship and treat the “tangential” exception
as a prosecution remorse exception. In this case, the Federal Circuit panel
held that the tangential exception applied where the patentee “did not
need or intend to” surrender as much claim scope in prosecution as it did
to avoid prior art. Eli Lilly, 933 F.3d at 1332. Instead of the public-notice
and limits-of-language principles this Court’s precedent emphasizes, the
Federal Circuit panel here relied on what it called the “equitable” and
“case-specific” nature of the doctrine of equivalents. Id. at 1333-34. A
growing body of Federal Circuit decisions has taken the same approach,
including a divided decision issued the same week. See, e.g., Ajinomoto,

5

932 F.3d at 1352-56; Regents of Univ. of Cal. v. Dakocytomation Cal. Inc.,
517 F.3d 1364, 1377-79 (Fed. Cir. 2008); Insituform Techs., Inc. v. Cat
Contracting, Inc., 385 F.3d 1360, 1367-71 (Fed. Cir. 2004). As dissents in
two of those cases have pointed out, the approach these cases take to the
“tangential” exception is wrong. Ajinomoto, 932 F.3d at 1362 (Dyk, J.,
dissenting); Regents, 517 F.3d at 1381 (Prost, J., dissenting).

If a

patentee’s remorse over giving prior art a wide berth rather than a narrow
one is enough to escape prosecution history, then the tangential exception
will swallow the rule of prosecution history estoppel, and the patentee’s
competitors will be left to guess at what the patents might be used to cover
in litigation.
7.

The proper scope of the tangential exception is squarely

presented here. It resolves the entire case. All agree that if the exception
applies, Eli Lilly prevails on its infringement claims, and if it does not Dr.
Reddy’s prevails. In prosecution, Eli Lilly narrowed its claims to avoid
prior art. Its original claims recited “antifolate” (a category of drugs); its
amended claims recited “pemetrexed disodium” (a single compound in that
category). Relying on this Court’s precedent, Dr. Reddy’s designed around
Lilly’s claims by using one of the surrendered compounds—“pemetrexed

6

ditromethamine.” This is not a case where where the patentee “could not
reasonably be expected to have drafted a claim that would have literally
encompassed the alleged equivalent.” Festo, 535 U.S. at 740-41. Had Eli
Lilly desired broader claims that included Dr. Reddy’s product, it could
easily have drafted them. Nonetheless, Eli Lilly sued Dr. Reddy’s, alleging
infringement under the doctrine of equivalents. The district court and the
Federal Circuit held that even though Eli Lilly surrendered “pemetrexed
ditromethamine” in prosecution, the tangential exception applied because
Eli Lilly’s claim amendment was “inartful … prudential in nature, and did
not need or intend to cede other pemetrexed salts.” 933 F.3d at 1332
(emphasis added). As a result of the approach the Federal Circuit took,
Dr. Reddy’s was punished for relying on this Court’s precedent and the
public record of Eli Lilly’s prosecution history, and Eli Lilly was permitted
to expand its patent claims in litigation to cover compounds it had
surrendered to obtain its patent. Had the Federal Circuit taken the
opposite approach (¶6a, supra), it would have easily rejected Eli Lilly’s
arguments and held Eli Lilly to the consequences of the choices it made in
prosecution.

7

8.

The proper approach to the “tangential” exception is

fundamentally important. Under the broad approach that some Federal
Circuit panels take, the “tangential” exception undermines an important
longstanding limit on the doctrine of equivalents and threatens the publicnotice function of patent claims. This Court and the Federal Circuit have
both acknowledged the importance of the doctrine of equivalents. Festo,
535 U.S. at 731; Warner-Jenkinson, 520 U.S. at 29; Litton Sys., Inc. v.
Honeywell, Inc., 145 F.3d 1472, 1472 (Fed. Cir. 1998) (Plager, J.,
dissenting from denial of rehearing en banc) (“There is perhaps no
question more important to the health of patents than the scope and
application of the judicially-created doctrine of equivalents.”).
9.

Dr. Reddy’s respectfully requests an extension of time to

accommodate its counsel’s other professional obligations during the time
allotted to prepare a petition for certiorari. The allotted time to prepare
the petition has overlapped with Thanksgiving and the winter holidays,
and with several other deadlines, hearings, and oral arguments in other
cases (including two appeals with overlapping expedited briefing
schedules). The relatively short extension requested here should permit
sufficient time to prepare the petition for this Court’s review. Dr. Reddy’s

8

respectfully requests an 18-day extension of time, to and including
Monday, February 24, 2020.

Respectfully submitted,

January 22, 2020

tog

John C. O’Quinn
Counsel of Record
William H. Burgess
C. Alex Shank
Kirk land & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
(202) 389-5000
Counsel for Petitioners

9

